W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

21-352

Jason Gonzales

Michael J. Madigan, et al.
(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
Friends of Michael J. Madigan and 13th Ward Democratic Organization

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Michael J. Kasper

Date:

9/8/21

Digitally signed by Michael J. Kasper
Date: 2021.09.08 08:33:28 -05'00'

(Type or print) Name Michael J. Kasper
Mr.

Ms.

Mrs.

Firm

Kasper & Nottage, P.C.

Address

151 North Franklin Street, Suite 2500

City & State

Chicago, Illinois

Phone

(312) 704-3292

Miss

Zip 60606
Email

mjkasper60@mac.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Anthony J. Peraica
Stephen F. Boulton
Jennifer M. Hill

